                                                       IG-01-019




AUDIT
                           THIOKOL'S USE OF PROFESSIONAL AND
REPORT                           CONSULTANT SERVICES

                                      March 30, 2001




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html .

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

         Assistant Inspector General for Auditing
         Code W
         NASA Headquarters
         Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CRAG               Contractor Risk Assessment Guidelines
DCAA               Defense Contract Audit Agency
DCMA               Defense Contract Management Agency
DOD                Department of Defense
FAR                Federal Acquisition Regulation
W                                                                                          March 30, 2001


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: Thiokol’s Use of Professional and Consultant Services
                   Report Number IG-01-019

The NASA Office of Inspector General has completed an audit of Thiokol Propulsion's
(Thiokol) use of professional and consultant services. Professional and consultant services are
services performed by persons who are members of a particular profession or possess a special
skill and who are not officers or employees of the contractor.1 NASA's controls over
Thiokol’s use of professional and consultant services can be improved. We found cases in
which justifications for noncompetitive procurements of professional and consultant services
were inadequate and untimely. Specifically, we found that Thiokol officials did not maintain
adequate support for decisions to noncompetitively award the service subcontracts and did not
prepare written justifications for the noncompetitive awards prior to initiation of the work. As a
result, NASA has reduced assurance that Thiokol obtained the best available source or price
for consultant services costing $1.4 million under seven subcontracts and may not have
benefited from about $87,500 in professional and consultant service costs charged to NASA.

Background

Thiokol has provided reusable solid rocket motors for the Space Shuttle missions under three
cost-plus-award fee contracts2 that require the contractor to comply with Federal Acquisition
Regulation (FAR) requirements pertaining to professional and consultant service costs. The
FAR states that these service costs are allowable costs only when supported by evidence of the
nature and scope of the furnished service. Support would include details of the agreement
between Thiokol and the consultant, invoices from

                                                                                                                   2

1
  Federal Acquisition Regulation Part 31.205-33 provides this definition of professional and consultant services. The
NASA budget includes a separately stated amount for services titled, “professional, administrative, and management
advisory services.” The budget amount applies to services obtained by NASA under contract and does not apply to
professional and consultant services obtained by a NASA contractor through subcontract. Therefore, the NASA budget
amount does not apply to the audit objectives and scope.
2
  Thiokol provides reusable solid rocket motors under contracts NAS8-30490, NAS8-38100, and
NAS8-97238. The three contracts have a total value of $7.5 billion.
consultants that provide sufficient detail on the nature of the actual services performed, and the
consultant’s work products. The Defense Contract Audit Agency (DCAA) is responsible for
reviewing Thiokol’s incurred costs for allowability.

The contract also requires Thiokol to competitively award subcontracts to the maximum extent
practical. This includes documenting efforts to identify potential sources and the reasons
sources not selected were incapable of performing the subcontract requirements. The Defense
Contract Management Agency (DCMA) is responsible for the Government’s oversight of
Thiokol’s purchasing system, including oversight of costs for professional and consultant
services.

Contracting for professional and consultant services is susceptible to problems such as
noncompliance with laws and regulations related to competition and conflict of interest,
circumvention of related internal controls, and potential improper use of funds. Although the
costs for these services are generally low-dollar costs, they are considered sensitive costs.3
Weaknesses in the procurement and contract administration processes exist in this sensitive cost
area that, taken in combination, pose a risk of abuse to NASA.

Recommendations

We recommended that NASA direct Thiokol to ensure that contractor personnel submit timely
and acceptable justifications for noncompetitive procurements. This action helps ensure that
Thiokol awards professional and consultant service subcontracts to the best available source at
a reasonable price, particularly in the absence of competition or an appearance of a conflict of
interest. We also recommended that NASA (1) ask the DCAA to include reviews of
professional and consultant services in future incurred cost audits and (2) ask the DCMA to
incorporate professional and consultant service subcontracts into future surveillance reviews.
Finally, we recommended that NASA ask the DCMA to include in its surveillance reviews the
allocation4 of professional and consultant service costs charged as indirect costs and to notify
the NASA contracting officer when the Agency did not receive reasonable benefits in
comparison to the costs allocated to NASA. Because professional and consultant service
subcontracts are vulnerable to improper use, additional review by the DCAA and DCMA will
give NASA improved oversight of such services.
                                                                                                 3

3
  FAR 9.5, "Organizational and Consultant Conflicts of Interest," states that organizational and consultant conflicts of
interest result when other activities or relationships limit a person's ability to give impartial advice to the Government
or objectively perform contract work. The U.S. General Accounting Office defined sensitive costs in publication
GAO/AFMD-8.1.2, “Guide for Evaluating and Testing Controls Over Sensitive Payments,” May 1993. As recent as
October 2000, the Department of Defense Office of Inspector General reported that the Army and Air Force Exchange
Service did not require unpaid consultants to file financial disclosure reports, which could have assisted in identifying
potential conflicts of interest
4
  Allocation refers to the method the contractor uses to distribute indirect costs to contracts with Federal agencies. The
contractor's allocation method results in NASA paying about 70 percent of the indirect costs incurred for all Thiokol
contracts with Federal agencies.
Management’s Response

NASA concurred with the recommendations. The NASA contracting officer will issue
guidance to Thiokol to ensure that the contractor's buyers have required and completed written
justifications prior to awarding noncompetitive procurements. The NASA contracting officer
(1) will request that the DCAA include professional and consultant services costs in future
incurred cost audits and that the DCMA include the services subcontracts as part of purchasing
system and surveillance reviews and (2) will coordinate with the DCMA to ensure that Thiokol's
allocations of service costs charged as indirect costs result in NASA receiving reasonable
benefits in relation to cost.

Details on the status of the recommendations are in the recommendations section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Thiokol’s Use of Professional and Consultant Services
THIOKOL’S USE OF PROFESSIONAL AND CONSULTANT
                   SERVICES
W                                                                        March 30, 2001


TO:             M/Associate Administrator for Space Flight
                MSFC/AA/Director, Marshall Space Flight Center

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on Audit of Thiokol’s Use of Professional and Consultant
                Services, Assignment Number A0002101
                Report Number IG-01-019


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The recommendations will remain open for reporting purposes until
corrective actions are completed. Please notify us when actions have been completed on each
recommendation.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360; or Ms. Nora Thompson, Audit Program
Manager, at (757) 864-3268; or Mr. Doug Orton, Auditor-in-Charge, at (281) 244-1159.
We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix E.


[original signed by]
Russell A. Rau

Enclosure

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 3

           Controls over Noncompetitive Procurements of Professional and
           Consultant Services, 3

Appendix A - Objectives, Scope, and Methodology, 10

Appendix B - Consultant Subcontracts Reviewed, 11

Appendix C - Summary of Prior Reviews and Findings, 12

Appendix D – Management's Response, 14

Appendix E – Report Distribution, 17
                              NASA Office of Inspector General

IG-01-019                                                                              March 30, 2001
A0002101

                                        Thiokol’s Use of
                                   Professional and Consultant
                                             Services

                                          Executive Summary

Background. Thiokol has provided reusable solid rocket motors for the Space Shuttle
missions under three contracts with a total value of $7.5 billion. Marshall Space Flight Center
(Marshall) awarded the first contract, NAS8-30490,5 to Thiokol in March 1989 for about $3.2
billion. Marshall awarded the second contract, NAS8-38100, in June 1991 for about $2.6
billion and the third contract, NAS8-97238, in August 1999 for about $1.7 billion. 6 The
primary location of performance on the contract is Brigham City, Utah. Thiokol acquired
professional and consultant services to obtain advice, studies, training, or a liaison with
Government officials.

The DCMA is responsible for the Government's oversight of Thiokol's purchasing system,
including the award and management of professional and consultant services subcontracts. The
Defense Contract Audit Agency (DCAA) also performs annual audits of incurred costs on the
contract.

Objectives. The overall objective was to determine whether NASA had adequate controls
over Thiokol’s use of professional and consultant services. Appendix A describes the specific
audit objectives and methodology. For our review, we selected subcontracts to contract
NAS8-38100 that were active in 1998 and 1999 and that appeared to be at risk for
unallowable costs or were subcontracts with former Thiokol employees and subcontractors.
Thirteen subcontracts, with a total value of $1.4 million, met our criteria for review (see
Appendix B).

Results of Audit. NASA's controls over Thiokol’s use of professional and consultant services
can be improved. Weaknesses in the procurement and contract administration processes exist
in this sensitive cost area that, taken in combination, pose a risk of abuse to NASA. For 7 of
the 13 professional and consultant service subcontracts we reviewed, Thiokol buyers did not

5
  Contract NAS8-30490 was a cost-plus-award fee contract with a period of performance from March 1989 through
December 31, 1997. NASA awarded three supplemental acquisitions of motors and included the acquisitions as
schedules to the contract. Two of the acquisitions were separate contracts, but NASA bundled the acquisitions under
contract NAS8-30490 for ease of administration.
6
  Contract NAS8-38100 was cost-plus-award fee contract with a period of performance from June 1991 through
December 31, 2000. Contract NAS8-97238 is a cost-plus-award fee contract with a period of performance from
August 1999 through May 31, 2005.
require adequate justifications for noncompetitive procurements. Justifications for the seven
subcontracts had one or more of the following deficiencies:

        •   Untimely or inappropriate justification for noncompetitive procurement (two
            subcontracts)
        •   Inadequate explanatory statement (six subcontracts)
        •   Missing description of actions to compete future procurements (four subcontracts)

As a result, NASA has reduced assurance that Thiokol obtained the best available source or
price for consultant services paid for under the seven subcontracts and may not have benefited
from about $87,500 in professional and consultant service costs charged to NASA.

Recommendations. We recommended that management require the Agency's contracting
officer for NAS8-38100 to (1) direct Thiokol to ensure contractor personnel submit timely and
acceptable justifications for noncompetitive procurements; (2) request the DCAA to include
professional and consultant service costs in samples selected for future incurred cost audits; (3)
request the DCMA administrative contracting officer to include professional and consultant
service subcontracts as part of DCMA’s surveillance reviews; and (4) request the DCMA
administrative contracting officer to include in oversight reviews the allocation of professional
and consultant service costs charged as indirect costs and to notify the NASA contracting
officer when the Agency did not receive reasonable benefits in comparison to the costs
allocated to NASA.

Management Response

Management concurred with all the recommendations and plans to implement the recommended
actions.

Evaluation of Management’s Response. We consider management’s comments
responsive.




                                                 ii
Introduction

Thiokol's Responsibilities in Subcontracting. NAS8-38100 gives Thiokol authority to
subcontract for professional and consultant services and requires Thiokol to award and
administer subcontracts according to requirements in FAR, Part 44, "Subcontracting." Thiokol
must maintain a purchasing system that promotes efficient and effective use of Government
funds. The purchasing system must include processes that select the best source for a
subcontract and oversight controls that ensure the proper award of subcontracts. Oversight
controls are critical to protecting NASA's interest since most Thiokol subcontracts for
professional and consultant services involved sources not subject to Government oversight.
FAR Part 44 requires Thiokol to comply with Government policies in subcontract awards,
including the Government policy of full and open competition in contracting.

Oversight of Professional and Consultant Services. On January 5, 2000,7 the NASA
contracting officer delegated to the DCMA administrative contracting officer approval of the
Thiokol purchasing system and oversight of contractor operations. The DCMA administrative
contracting officer uses DCMA purchasing system reviews and risk assessments as a basis for
approving the Thiokol purchasing system. In March 1992, Thiokol became a voluntary
participant in a Department of Defense (DOD) program, the Contractor Risk Assessment
Guidelines (CRAG), which allows contractor self-administered purchasing system reviews.8
Following CRAG, Thiokol conducted purchasing system reviews every 3 years since 1992, and
DCMA validated the reviews. During the 3-year period between purchasing system reviews,
DCMA performs risk assessments of Thiokol's management controls over general functional
areas. The DCMA risk assessments evaluate risk by comparing Thiokol's management controls
against a checklist of best practices, but the assessments do not include any reviews of
transactions. In 1997 and 1998, Thiokol performed self-administered purchasing system
reviews. Based on the 1998 purchasing system review and risk assessment, DCMA continued
its approval of Thiokol's purchasing system. In March 2000, DCMA completed the latest risk
assessment. The DCMA administrative contracting officer renewed the approval of the Thiokol
purchasing system on March 31, 2000.

During contract performance, the DCMA administrative contracting officer conducts
surveillance reviews to evaluate individual purchases or subcontracts and performs consent to
subcontract reviews. The reviews of individual purchases and subcontracts ensure Thiokol
maintains adequate purchasing procedures. The consent to subcontract reviews require Thiokol
officials to obtain the DCMA administrative contracting officer's consent before awarding
subcontracts that exceed 5 percent of total estimated contract costs.




7
  The most recent delegation to the DCMA is dated January 5, 2000. The DCMA has provided contract administration
services for contracts NAS8-30490, NAS8-38100, and NAS8-97238.
8
  CRAG guidelines for the self-administered purchasing system reviews are stated in the DOD Contractor's Risk
Assessment Guide, October 1988, Chapter V, "Purchasing."
The DCAA conducts annual audits of incurred costs for contract NAS8-38100 and determines
whether costs meet contract and FAR allowability requirements.9 Because Thiokol changed to
a calendar year accounting method in June 1998, DCAA performed two incurred cost audits
for 1998. The DCAA completed the 1998 audit of incurred costs and reported the results to
the DCMA administrative contracting officer in two reports, dated June 10, 1999, and
September 8, 1999.10

Prior Reviews. During prior reviews of consultant services and subcontracts at other
contractors, the DOD Office of Inspector General and the NASA Office of Inspector General
have found deficiencies. See Appendix C for a summary of the reports and findings.




9
  DCAA reports those costs that do not meet allowability requirements to the DCMA administrative contracting
officer. The DCMA administrative contracting officer resolves and dispositions any costs that DCAA reports as
unallowable.
10
   DCAA issued results of the 1998 incurred cost audits in Audit Report No. 3231-99P10150001, "Report on Audit of
Fiscal Year 1998 Incurred Costs," dated June 10, 1999, and Audit Report No. 3231-99P10150002, "Report on Audit of
Fiscal Period 1998T Incurred Costs," dated September 8, 1999.
                                                           2
Finding and Recommendations

Finding. Controls over Noncompetitive Procurements of Professional
and Consultant Services

For 7 of the 13 professional and consultant service subcontracts we reviewed, Thiokol officials
did not prepare acceptable justifications for noncompetitive procurements. Justifications were
unacceptable because Thiokol personnel did not follow Thiokol policy in noncompetitive
procurements with former Thiokol employees and sources with prior Thiokol subcontracts.
Also, DCMA purchasing system and surveillance reviews and DCAA audits of incurred costs
did not include professional and consultant services subcontracts due to the relatively low-dollar
value of these subcontracts but without consideration of the inherent risks. Further, the DCMA
consent to subcontract review excludes professional and consultant services subcontracts
because the subcontracts do not meet the threshold dollar value for the review. As a result,
NASA has reduced assurance that the contractor obtained the best source and may not have
benefited from about $87,500 in professional and consultant service costs charged to NASA.


FAR and Contract NAS8-38100 Requirements

FAR, Subpart 31.205-33, “Professional and Consultant Service Costs,” states that
professional and consultant services are allowable costs only when supported by evidence of
the nature and scope of the service the consultant furnished under the subcontract.11 FAR
requires the contractor to maintain details of the agreement between the consultant and
contractor (for example, work requirements and rate of compensation) and details of actual
services the consultant performed. These requirements are in place in recognition of the inherent
risk that professional and consultant service subcontracts can result in conflicts of interest and
favoritism in the award process.

FAR Part 6, "Competition Requirements," directs contracting officers to take specific actions
that ensure compliance with Government policy on full and open competition in Government
contract awards. The contracting officer must solicit offers from as many potential sources as is
practical. To identify potential sources, the contracting officer conducts a market analysis,
documents the analysis, and retains the documentation in the contract file. A contracting officer
can award a noncompetitive procurement when only a single qualified source is available to
perform the contract requirements. However, the contracting officer must prepare a written
justification that explains why a competitive procurement is not appropriate. The justification

11
  FAR also requires that invoices from the consultant show sufficient details regarding the time the consultant spent on
the subcontract and the nature of the actual services the consultant performed. The contractor must maintain
consultants' work products and documents related to the work the consultant performed. Examples include trip
reports, minutes of meetings, and collateral memoranda and reports. Trip reports should indicate persons the
consultant visited and subjects the consultant discussed during the visits.



                                                           3
must describe the market analysis and results of the analysis, list other sources that are available,
explain the selected source's unique qualifications, and explain why the available sources that
were not selected are unqualified.

FAR, Part 44, "Subcontracting," requires Thiokol to comply with Government policies in
subcontract awards, including the Government policy of full and open competition. The
administrative contracting officer must maintain a sufficient level of surveillance to ensure the
contractor's purchasing system complies with competition requirements.

To ensure Thiokol competitively awards subcontracts to the maximum extent practical, contract
NAS8-38100 incorporated FAR clause 52.244-5, "Competition in Subcontracting." Thiokol
implemented Procurement Organization Operating Instruction FI-T400-20.4, “Single/Sole
Source Justification," which established requirements similar to FAR Part 6. In accordance with
the Instruction, Thiokol personnel must avoid noncompetitive procurements whenever possible.
The written justification must explain why a competitive procurement is not appropriate and
describe actions that prevent future noncompetitive procurements. Instruction FI-T400-20.4
directs the Thiokol buyer to ensure that the written justification meets requirements before
awarding the noncompetitive procurement.


Justifications for Noncompetitive Procurements

The 13 professional and consultant service subcontracts we reviewed were noncompetitive
procurements. For 7 of the 13 noncompetitive procurements, professional and consultant
service subcontracts included one or more of the following deficiencies:

    •   Untimely or inappropriate justification. On two subcontracts, Thiokol personnel
        requesting the procurement prepared a written justification for the initial noncompetitive
        procurement, but did not update the justification when Thiokol issued a follow-on
        subcontract to the same subcontractor. On one subcontract, for example, Thiokol
        issued the initial noncompetitive subcontract in 1993 and awarded follow-on
        subcontracts for years 1994 through 2001 without written justifications.

    •   Inadequate explanatory statement. On six subcontracts, Thiokol personnel who
        requested the noncompetitive procurement did not explain why a competitive
        procurement was inappropriate. Four of the six justifications did not show that
        requesting personnel considered any other source. Two of the six justifications
        summarized other sources that the requester considered and stated that the




                                                  4
        selected source was uniquely qualified. The justifications did not state why the other
        available sources were incapable of performing the subcontract requirements.

    •   Missing description of actions to compete future procurements. Justifications for
        four subcontracts lacked a description of actions to compete future procurements. For
        the procurements, requesting personnel either did not complete that section of the
        justification form or indicated they would take no action.


Thiokol Personnel

Thiokol personnel were aware of Thiokol procurement policy FI-T400-20.4 but did not follow
the policy in noncompetitive procurements with former Thiokol employees or subcontractors.

    •   For four of the seven procurements, Thiokol requesting personnel selected sources that
        either were former Thiokol employees or had prior subcontracts with Thiokol. When
        requesting personnel were familiar with the sources, requesting personnel did not
        perform a market analysis to identify other sources. Buyers accepted justifications that
        did not have adequate explanatory statements when the noncompetitive procurement
        involved a former Thiokol employee or subcontractor.

    •   For two procurements, Thiokol senior management directed contractor personnel to
        select a specific source through a noncompetitive procurement because the source
        previously performed work for other Thiokol divisions. Requesting personnel and
        buyers did not seek competition for the procurements.

    •   Requesting personnel did not document plans to compete future procurements on
        justifications that involved former Thiokol employees, former Thiokol subcontractors,
        or sources that Thiokol senior management selected.

The NASA contracting officer should direct Thiokol to ensure that requesting personnel submit
adequate justifications for noncompetitive procurements and that buyers do not award
noncompetitive procurements without adequate justifications.


DCAA and DCMA Oversight

DCAA audits of incurred costs and DCMA purchasing system reviews use a risk-based
approach to select individual items for review. The risk-based approach focuses a review on
items for which the dollar risk and expected benefit of review are greatest in terms of questioned
costs. For years prior to 2000, DCAA incurred cost audits and DCMA purchasing system
reviews did not disclose unallowable professional and consultant service costs at Thiokol. The
dollar value of individual professional and consultant services subcontracts are lower than other
items of incurred costs for those years. Although professional and consultant services

                                                5
subcontracts are susceptible to improper use or conflict of interest, DCMA and DCAA reviews
are less likely to select the subcontracts because of their lower dollar value.

Additionally, the DCMA administrative contracting officer performs a consent to subcontract
review that is likely to exclude professional and consultant services subcontracts. Under the
consent to subcontract review, the DCMA administrative contracting officer reviews
subcontracts that exceed 5 percent of the $7.5 billion estimated total value of the three
contracts, limiting the review to subcontracts with an estimated value of $375 million or more.
The review will not include professional and consultant services subcontracts with a value less
than $375 million. For example, none of the 13 professional and consultant service
subcontracts we reviewed was subject to the DCMA administrative contracting officer’s
consent to review because the value of each subcontract was less than $375 million. To ensure
Thiokol's purchasing system complies with the Government policy of full and open competition
and to avoid the appearance of favoritism, the DCMA administrative contracting officer should
review a sample of professional and consultant services subcontracts. The NASA contracting
officer should modify the delegation to the DCMA administrative contracting officer to ensure
that the officer includes a sample of professional and consultant services subcontracts in the
consent to subcontract reviews.


Effect on Competition and Oversight Reviews

Adequate justifications and supporting documentation are needed to provide NASA assurance
that Thiokol awarded professional and consultant service subcontracts to the best available
source at a reasonable price. Also, adequate documentation facilitates DCMA purchasing
system and surveillance reviews by describing the steps the contractor used to identify the
available sources and the contractor's basis for noncompetitively selecting a single source.

Three of the seven noncompetitive procurements with unacceptable justifications obtained
consulting services that another source may have been able to provide. The three
procurements, shown in the following table, have a total value of $593,850, or about 42 percent
of the $1.4 million in subcontracts that we reviewed.




                                               6
                              Subcontracts with a Potential for Competition

 Subcontract                                 Description of Services*                             Contract Value

 M8FB200                        Provide consulting services for marketing                                    $28,000
                                tactical technology and production in the
                                Huntsville, Alabama, area.

 8FB048                         Assist in marketing activities for current and                             $125,000
                                upcoming business opportunities in the
                                commercial and DOD arenas.

 M8FB235                        Provide consultants to support leadership                                  $440,850
                                training events.

* We obtained the description of services provided under the subcontract from the subcontract scope of award or the
written justification for noncompetitive procurement.



 The contractor needs adequate justifications and supporting documentation to show that a
 noncompetitive procurement was the appropriate procurement instrument.

 Additionally, for subcontract 8FB048, the subcontract documentation describes $125,000 in
 professional and consultant services for marketing activities that primarily supported Air Force,
 Navy, and Army programs. Thiokol has used the consultant's services since July 1992. The
 pricing analysis for the 1997 award stated that the consultant would provide marketing services
 for Air Force silo-based programs, including the Minute-Man Missile program. A DCAA
 review of the consultant's monthly trip reports for August 1997 through January 2001 showed
 the consultant primarily provided marketing services for DOD programs. For 1998 and 1999,
 NASA paid about 70 percent 12 of the $125,000 subcontract, or about $87,500, for
 professional and consultant services. The contractor charged the subcontract as an indirect cost
 to its contracts with Federal agencies and in agreement with its normal accounting practices.13

 The subcontract involved activities that are allowable indirect costs for years 1997 and 1998.
 However, the subcontract illustrates the importance of the DCMA administrative contracting
 officer reviewing the contractor's method of charging, or allocation,14 of professional and

 12
    The 70 percent represents the amount of an indirect cost that the contractor charges to NASA. The contractor
 charges the remaining 30 percent to Thiokol contracts with other Federal agencies.
 13
    Thiokol disclosed its normal accounting practices for professional and consultant service subcontracts in its Cost
 Accounting Standards Board Disclosure Statement, Section 3.2.3. The statement prescribes that a professional and
 consultant service subcontract is a direct cost if the subcontract is readily, economically, and consistently identifiable to
 a contract or project. A professional and consultant service subcontract is an indirect cost if the contractor incurred the
 cost for multiple contracts and the services are necessary for the overall operation of the business.
 14
    Allocation refers to the method the contractor uses to distribute indirect costs. Thiokol collects indirect costs
 incurred for all contracts with Federal agencies into a Federal indirect cost pool and distributes the Federal indirect cost
 pool to the individual contracts through the indirect, or overhead, rate.
                                                               7
consultant service subcontracts that are indirect costs to individual contracts with agencies.
Such action will allow the NASA contracting officer to determine whether negotiating a limit on
the amount of indirect costs that the contractor can bill to the NASA contract is appropriate.



Recommendations, Management’s Response, and Evaluation of
Response

The Director, Marshall Space Flight Center, should require the NASA contracting
officer to:

   1. Direct Thiokol to ensure that requesting personnel submit acceptable and timely
      justifications as required by Thiokol Procurement Organization Operating
      Instruction FI-T400-20.4 and to ensure that buyers do not award noncompetitive
      procurements without required and complete justifications.

   2. Request the DCAA to include professional and consultant service costs in
      samples selected for future incurred cost audits.

   3. Request the DCMA administrative contracting officer to include professional
      and consultant service subcontracts as part of purchasing system and
      surveillance reviews.

   4. Request the DCMA administrative contracting officer to include in DCMA
      oversight reviews the allocation of professional and consultant service costs
      charged as indirect costs and to notify the NASA contracting officer when
      NASA did not receive reasonable benefits compared to the costs allocated to
      NASA.


Management’s Response. Concur. The NASA contracting officer will issue guidance to
Thiokol to ensure that buyers have required and completed justifications prior to awarding
noncompetitive procurements. The contracting officer (1) will request that the DCAA include
professional and consultant services costs in future incurred cost audits and that the DCMA
include professional and consultant service subcontracts as part of purchasing system and
surveillance reviews and (2) will coordinate with the DCMA to ensure that Thiokol’s allocations
of service costs charged as indirect costs result in NASA receiving reasonable benefits in
relation to cost.

The complete text of management’s response is in Appendix D.
Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendations. The recommendations are resolved but will remain undispositioned and
open until agreed-to-corrective actions are completed.

                                               8
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA had adequate control of Thiokol’s use
of professional and consultant services. Specifically, we determined whether the contractor’s
professional and consultant service costs included unallowable costs.

Scope and Methodology

We reviewed professional and consultant service subcontracts that were active in 1998 and
1999. During that period, Thiokol had 47 active professional and consultant service
subcontracts totaling $2.3 million. We examined subcontract documentation related to years
1998 and 1999. Documentation included subcontracts, statements of work, noncompetitive
justifications, cost and price analyses, consultants’ invoices and work products, payment
approvals, and miscellaneous correspondence. We also compared each subcontract against
requirements in the FAR and relevant Thiokol policies and procedures and interviewed
contractor personnel who requested the consultant services, Thiokol procurement officials, the
NASA contracting officer, and the DCMA administrative contracting officer.

Use of Computer-Processed Data

We obtained computer-generated data on subcontract awards and tested the data by
comparing it to source documents for the sampled subcontracts. For those sampled
subcontracts with extensions covering years before or after 1998 and 1999, we validated 1998
and 1999 subcontract costs and confirmed the total subcontract cost with DCAA. The tests
showed that the computer-processed data were sufficiently reliable to be used in meeting the
audit objectives.

Management Controls Reviewed

We reviewed management controls over compliance with FAR allowability requirements and
the award of consultant subcontracts. Management controls over the justification of
noncompetitive procurements need improvement as discussed in the report finding.

Audit Field Work

We performed audit field work from May through December 2000 at Marshall Space Center
and at Thiokol’s facility in Brigham City, Utah. We conducted the audit in accordance with
generally accepted government auditing standards.




                                               9
                   Appendix B. Consultant Subcontracts Reviewed

 Subcontract          Dollar Value            Incurred Cost                                  Deficiency
                                             (Through December
                                                   1999)


M8MG068                    $ 44,000                    $ 25,047 Inadequate explanatory statement

7FB160                    Unfunded*                       73,197 None

M8MG112                      280,000                     194,235 Inadequate explanatory statement, and
                                                                 missing description of actions to compete
                                                                 future procurements

M7MB110                      374,400                     373,482 Untimely or inappropriate justification

M8SJ039                         7,000                       7,000 None

8FB048                       125,000                     100,016 Inadequate explanatory statement, and
                                                                 missing description of actions to compete
                                                                 future procurements

M8FB200                       28,000                      16,439 None

M9FB009                       28,194                      28,194 None

M8FB190                       40,000                      40,000 Inadequate explanatory statement, and
                                                                 missing description of actions to compete
                                                                 future procurements

M8FB174                         3,695                       3,695 None

M8FB235                      440,850                     252,858 Untimely or inappropriate justification, and
                                                                 inadequate explanatory statement

8FB012                        26,500                      24,230 Inadequate explanatory statement, and
                                                                 missing description of actions to compete
                                                                 future procurements

M8FB172                       40,000                      36,961 None
Total                    $1,437,639                 $1,175,354

* Unfunded subcontracts state a ceiling for the subcontract amount but do not state a specific dollar value because the
specific dollar value is unknown at the time of the award.

                                                           10
           Appendix C. Summary of Prior Reviews and Findings

NASA Office of Inspector General (OIG) Reviews. The NASA OIG issued two audit
reports and a management letter report on subcontract management. (Copies of the two audit
reports are available at www.hq.nasa.gov/office/oig/hq/issuedaudits.html.)

“Allied-Signal Subcontract Management,” Report Number IG-99-042,
September 16, 1999, and “Raytheon Subcontract Management,” Report Number IG-
00-002, December 21, 1999. Purchasing department buyers for the two contractors did not
maintain documentation to support justifications for noncompetitive procurements. The
contractors' purchasing policies did not require contractor personnel to keep supporting
documentation. Additionally, Government oversight reviews of the contractors’ procurement
systems did not include examinations of supporting documentation for noncompetitive
procurements. As a result, NASA had reduced assurance that the contractor maximized the
competition of its subcontracts. In response to our recommendations, NASA management
instructed the contractors to maintain adequate documentation in support of noncompetitive
procurements. NASA management also took actions to include reviews of supporting
documentation in future reviews of the contractors’ purchasing systems.

"Management Letter Regarding Procurement Issues Identified in the Shuttle-Mir
Rendezvous and Docking Missions and International Space Station Operational
Readiness Task Forces Report," February 18, 1998. A NASA subcontractor providing
technical support to a NASA Task Force may have lacked the impartiality needed to make
independent assessments and recommendations concerning the organizations funding their
efforts. Also, the noncompetitively awarded subcontract and subcontract extension did not
have adequate justification for a noncompetitive procurement. The contractor submitted
inadequate explanatory statements for the initial award, did not conduct a market survey or
submit a written justification for the subcontract extension, did not perform an adequate price
analysis, and did not obtain the required approvals. Because the management letter report
contains sensitive and proprietary contractor information, we are not providing additional details
regarding the report's recommendations and management's response to the recommendations.


DOD Reviews . The DOD Office of Inspector General issued two audit reports on consultant
service contracts.

“Contracts for Professional, Administrative, and Management Support Services,"
Report Number D-2000-100, March 10, 2000, and “Use of Unpaid Consultants by the
DOD Exchange Services,” Report Number D-2001-005, October 16, 2000. Report
Number D-2000-100 discusses a review of procurement procedures for professional,
administrative, and management support service contracts at 15 DOD contracting activities and
program offices. The report identified problems in each of 105
                                                                                Appendix C


                                                11
sampled contract actions. Problems included undefined requirements, inadequate technical
reviews, inadequate negotiation memorandums, inadequate competition, and lack of cost
control. Report Number D-2001-005 discusses the Army and Air Force Exchange Service
inappropriate engagements of consultants who had financial affiliations with the Exchange
Service. The Exchange Service did not require unpaid consultants to file financial disclosure
reports, which could have assisted in identifying potential conflicts of interest.




                                               12
Appendix D. Management's Response




               13
     Appendix D




14
Appendix D




             15
                          Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency




                                               16
Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             17
              NASA Assistant Inspector General for Auditing
                             Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Thiokol’s Use of Professional and Consultant Services

Report Number:                                   Report Date:



           Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                 Agree              l         e      Disagre
                                                                                        e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?


Yes: ______                                    No: ______

Name: _____________________________

Telephone: __________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne Dear, Program Director, Procurement Audits

Nora Thompson, Program Manager, Procurement Audits

Doug Orton, Auditor-in-Charge

Bobbie Wells, Staff Auditor

Nancy C. Cipolla, Report Process Manager

Debbie Schuerger, Program Assistant
